TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Progress Has Been Made in Using the Tivoli®
                Software Suite, Although Enhancements Are
                   Needed to Better Distribute Software
                Updates and Reconcile Computer Inventories



                                         December 2005

                              Reference Number: 2006-20-021




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                December 14, 2005


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Progress Has Been Made in Using the Tivoli®
                                Software Suite, Although Enhancements Are Needed to Better
                                Distribute Software Updates and Reconcile Computer Inventories
                                (Audit # 200520003)

 This report presents the results of our review of the effectiveness of the Internal Revenue
 Service’s (IRS) Tivoli®1 Enterprise Systems Management function applications. The Tivoli®
 applications provide the IRS with the ability to systemically deliver the most current versions of
 software and updated security patches2 to employees’ computers and to scan the network for
 maintaining accurate computer inventory records. Because the IRS has over 100,000 employees,
 these tasks can be daunting; yet they are very important. Unsuccessful software distributions can
 lead to missing patches on computers, which, in turn, could expose the computers to exploitation
 by hackers, disgruntled employees, and/or malicious programs. In addition, maintaining an
 accurate computer inventory is crucial for the accuracy of the IRS’ financial statements.

 Synopsis
 The IRS has shown significant progress in using Tivoli® applications for distributing software
 updates to computers. Much of that progress can be attributed to the IRS’ efforts to improve
 Tivoli’s® ability to connect to more computers. While these improvements are commendable,
 the IRS can take further actions to improve its software distribution success rate, better use
 Tivoli® data for inventory reconciliation and software license management, and increase its
 overall ability to connect to computers.


 1
  Tivoli® is a registered trademark owned by IBM.
 2
  A patch is a fix to a program as a result of a design flaw in the program. Patches must be installed or applied to the
 applicable computer to correct the flaw.
                     Progress Has Been Made in Using the Tivoli® Software Suite,
                       Although Enhancements Are Needed to Better Distribute
                        Software Updates and Reconcile Computer Inventories


The IRS has used Tivoli® to successfully install software updates to 77 percent of its computers,
compared to 44 percent about 2 years ago. However, the two most frequent and important types
of software distributions made (updates to the IRS’ Common Operating Environment3 and
Microsoft Windows security patches) were also the most problematic during January through
May 2005. The IRS installed only 62 percent of these software distributions successfully. In
some instances, the IRS combined multiple updates into single distributions. We believe the size
of the distributions made installation more difficult. We noted that the IRS lacks guidance on
developing software distribution packages.
We also identified two inventory management issues that could be improved by using the Tivoli®
software Inventory application. First, Tivoli® produces weekly reports to reconcile its data and
data from the IRS’ official computer equipment database, the Information Technology Asset
Management System (ITAMS). We found these reconciliation reports identified an average of
over 8,300 mismatched computers during the period March through May 2005. IRS personnel
attempted to resolve the mismatched computers but were hampered by the mislabeling of
computer names on the ITAMS. As such, the IRS abandoned these efforts. Because the
mismatches were not resolved, the IRS’ information technology inventory system likely does not
include all IRS computers.
Second, the IRS did not use information from Tivoli® to ensure software installed on computers
complied with license agreements. Tivoli® can aid in this effort through its ability to scan and
identify software on every desktop and laptop computer, a process that, if done manually, would
require an enormous effort. Tivoli® software data are not used because the IRS has not outlined
policies and procedures regarding software management. By not managing software installations
and licenses, the IRS could be violating software license agreements by installing more copies of
software than were purchased, resulting in embarrassment and unnecessary legal fees. For
example, Tivoli® data showed that 494 unique computers had proprietary reporting software
installed, but the IRS could document only 142 licenses.
Lastly, the IRS estimates that Tivoli® can now connect to 95 percent of its computers, compared
to 60 percent about 2 years ago. The ability to connect to more computers can have a direct
effect on the success of software distributions and the accuracy of inventory management data.
The IRS determines the percentage of computers managed by Tivoli® by whether Tivoli® has
connected to a computer within 30 days. However, as recent events such as the Sasser worm4
and other fast-moving computer security outbreaks have shown, the IRS must install critical
security patches as soon as possible. We believe using a 1-week connectivity criterion is more


3
  The Common Operating Environment is a standardized, configured computer image integrated with a set of
standard software packages to support the needs of all IRS employees.
4
  The Sasser worm exploited a flaw in the Local Security Authority Subservice System on Microsoft Windows
computers and transferred additional exploitable code to the computers. It also probed for other computers to infect.
This worm rendered computers inoperable.
                                                                                                                    2
                 Progress Has Been Made in Using the Tivoli® Software Suite,
                   Although Enhancements Are Needed to Better Distribute
                    Software Updates and Reconcile Computer Inventories



realistic and appropriate in today’s environment. Using this criterion, we estimate the IRS
cannot reach 18 percent of its computers (approximately 18,750 computers) in any given week.
We identified several reasons why some computers cannot connect to the Tivoli® system or did
not have the Tivoli® client software installed. For example, the IRS had not documented
procedures for installing and maintaining Tivoli® software on computers, responsible persons did
not have access to computers to resolve connection problems, and the IRS may have taken some
computers out of service without notifying employees responsible for maintaining Tivoli®
applications. By being unable to connect to thousands of computers through the Tivoli® system,
the IRS will not be fully benefiting from the use of Tivoli® and will continue to use limited
resources to manually administer these computers, particularly for installing the latest virus
patches and inventorying hardware and software.

Recommendations
To improve software distributions, we recommended the Chief Information Officer develop
procedures that provide formal guidance and standardization in preparing software distributions.
To improve the use of Tivoli® software Inventory application data, we recommended the Chief
Information Officer require the Associate Chief Information Officer, End User Equipment and
Services, to resolve mismatches between Tivoli® data and the ITAMS and to ensure all desktops,
laptops, and servers comply with the IRS’ computer naming standards. The Chief Information
Officer should ensure software management policies and procedures are provided and
responsibility for software management is specified. The policies and procedures should require
the use of Tivoli® software Inventory application data to monitor compliance with software
licenses.
To improve Tivoli® computer connectivity, we recommended the Chief Information Officer
notify all employees of the need for computers to remain online whenever possible, provide
employees assigned Tivoli® responsibilities adequate access to computers, separately account for
Tivoli® computers that are taken out of service for backup or emergency purposes, and assign
formal responsibility for incorporating computers without the Tivoli® client software into
Tivoli®.

Response
IRS management agreed with all of our recommendations. Specifically, the Associate Chief
Information Officer, End User Equipment and Services, will develop formal procedures that
provide guidance and standardization in the preparation of software distributions; develop
procedures to resolve mismatches between Tivoli® data and the ITAMS, ensuring all desktops,
laptops, and servers comply with the IRS’ computer naming standards; and develop software
management policies and procedures that will identify responsibility for software management.
                                                                                                3
                     Progress Has Been Made in Using the Tivoli® Software Suite,
                       Although Enhancements Are Needed to Better Distribute
                        Software Updates and Reconcile Computer Inventories


These procedures will require the use of Tivoli® software Inventory application data to monitor
compliance with software licenses.
The Associate Chief Information Officer, End User Equipment and Services, will also develop a
plan and procedures to ensure appropriate Enterprise Systems Management function employees
have adequate access to computers and networks to resolve computer connectivity issues. The
plan and procedures will account for modifying the script5 used for installing the Tivoli®
software client on users’ workstations via the Windows Administration group for the purpose of
managing Tivoli® computers. Second, the plan and/or procedures will also grant access to
appropriate personnel in the Offices of Appeals, Chief Counsel, and Criminal Investigation for
managing Tivoli® computer connections.
In addition, the Associate Information Officer, End User Equipment and Services, will continue
to notify all IRS employees via Employee Advisories of the need for computers to remain online
and connected to the IRS network whenever possible; develop appropriate processes and
procedures to provide exception reporting when computers are taken offline and brought back
online to ensure Tivoli® recognizes them; and develop a process/procedure to identify systems
that are not being managed by Tivoli® software so they can either receive the Tivoli® software,
become part of the Tivoli® managed group, or be removed from the network. Management’s
complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




5
  A script is a short program written in general-purpose programming language to perform certain tasks, including
those that are repetitive in nature.
                                                                                                                    4
                         Progress Has Been Made in Using the Tivoli® Software Suite,
                           Although Enhancements Are Needed to Better Distribute
                            Software Updates and Reconcile Computer Inventories




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          While Software Distribution Has Improved, Critical Updates Were
          Not Always Installed.....................................................................................Page 3
                      Recommendation 1:........................................................Page 5
                  ®
          Tivoli Data Are Not Being Used to Manage Computer Inventory
          and Software Licenses ..................................................................................Page 5
                      Recommendations 2 and 3: ..............................................Page 8

          Tivoli® Could Improve Software Distribution and Inventory
          Management by Connecting to More Computers.........................................Page 8
                      Recommendations 4 and 5: ..............................................Page 10

                      Recommendations 6 and 7: ..............................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Management’s Response to the Draft Report ......................Page 16
                      Progress Has Been Made in Using the Tivoli® Software Suite,
                        Although Enhancements Are Needed to Better Distribute
                         Software Updates and Reconcile Computer Inventories




                                              Background

The Internal Revenue Service (IRS) has over 100,000 employees, many of whom use a computer
to carry out their job responsibilities. To address the challenge of managing and controlling its
geographically dispersed computer resources, the IRS implemented the Tivoli®1 software suite.
The Tivoli® applications have the potential to improve productivity by systemically delivering
the most current versions of software and updated security patches2 to employees’ computers.
Security patches are important in protecting an agency’s computers from viruses and hackers.
Typically, the software industry self-polices the quality of its products by identifying software
security vulnerabilities after the product has been on the market. To correct these security
vulnerabilities, the software vendors issue security patches. However, hackers are also acutely
aware of all security vulnerabilities being identified and will use these vulnerabilities to launch
attacks and/or create malicious programs to take advantage of these flaws.
The importance of installing security patches was best illustrated with a 2004 Federal Bureau of
Investigation study,3 which showed that 91 percent of all computer system intrusions could have
been prevented if related security patches had been implemented for countering known
vulnerabilities. The 2005 E-Crime Watch survey4 found that manual patch management, a
method still commonly used, was rated as the single least effective technology used by
organizations responding to the survey. Coupled with the fact that the CERT® Coordination
Center5 found 3,780 security vulnerabilities were reported during 2004, it is clear that manual
patching in a large bureau like the IRS would be overwhelming and ineffective.
By using the Tivoli® software suite to perform the task of distributing software updates and
security patches, the IRS can use its limited information technology personnel resources more
efficiently. The Tivoli® software suite also provides the IRS with the ability to automatically
scan and collect hardware and software information that can be used to improve the accuracy of

1
  Tivoli® is a registered trademark owned by IBM.
2
  A patch is a fix to a program as a result of a design flaw in the program. Patches must be installed or applied to the
applicable computer to correct the flaw.
3
  The 2004 Computer Crime and Security Survey was conducted by the Computer Security Institute with the
participation of the San Francisco Federal Bureau of Investigation’s Computer Intrusion Squad. The 2004 survey
results were based on the responses of 494 computer security practitioners across the United States.
4
  This survey was conducted by CSO (Chief Security Officer) magazine in cooperation with the United States Secret
Service and the Carnegie Mellon University Software Engineering Institute’s CERT® Coordination Center. The
research was conducted to unearth electronic crime-fighting trends and techniques, including best practices and
emerging trends.
5
  Established in 1988, the CERT® Coordination Center is a center of Internet security expertise, located at the
Software Engineering Institute, a Federally funded research and development center operated by Carnegie Mellon
University.
                                                                                                               Page 1
                     Progress Has Been Made in Using the Tivoli® Software Suite,
                       Although Enhancements Are Needed to Better Distribute
                        Software Updates and Reconcile Computer Inventories



the IRS computer inventory. This inventory is critical because it is used to support IRS financial
statements. Use of a manual method would require the IRS computer support staff to physically
log onto each computer, creating too great a burden due to the sheer number of computers
maintained by the IRS.
Responsibility for using the Tivoli® software suite lies with the Enterprise Systems Management
(ESM) function, whose mission is to provide design, development, deployment, and operational
support for the enterprise-wide management of IRS computers. The ESM function is part of the
End User Equipment and Services division of the Information Technology Services organization.
In Fiscal Year 2003, we conducted a review of the IRS’ implementation of the Tivoli® software
suite,6 identifying several weaknesses in the management control practices that, if not corrected,
could reduce the overall effectiveness and actual benefits of the Tivoli® implementation. The
weaknesses included the absence of policies and guidelines to promote Tivoli® computer
connectivity and a lack of staff assigned to resolve Tivoli® computer connectivity and software
distribution problems.
While the IRS uses several Tivoli® applications, this review focused on the Tivoli® software
Distribution and software Inventory applications. In addition, we reviewed the effectiveness of
IRS efforts to improve Tivoli® computer connectivity, which is critical to the effectiveness of all
Tivoli® applications. This review was performed in the Information Technology Services
organization at the IRS National Headquarters in Washington, D.C., and the Austin Campus7 in
Austin, Texas, during the period December 2004 through May 2005. The audit was conducted in
accordance with Government Auditing Standards. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




6
  The Implementation of Software Products to Manage and Control Computer Resources Needs Improvement
(Reference Number 2003-20-151, dated July 2003).
7
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 2
                     Progress Has Been Made in Using the Tivoli® Software Suite,
                       Although Enhancements Are Needed to Better Distribute
                        Software Updates and Reconcile Computer Inventories




                                      Results of Review

Since our last review in this area, the IRS has used the Tivoli® software suite to improve
software distribution to its computers, but some critical updates are not being installed. We also
noted that the IRS could use Tivoli® data to better manage its computer inventory. The success
of each of these tasks depends on the ability of the Tivoli® software to connect with computers
across the IRS network. We found that the IRS has significantly improved the ability of the
Tivoli® software to connect with computers; however, enhancements can be made.

While Software Distribution Has Improved, Critical Updates Were Not
Always Installed
The IRS has shown significant progress with the Tivoli® software Distribution application since
our last report. Most notably, the percentage of software distribution packages reaching targeted
computers increased from 44 percent in April 2003 to 77 percent in May 2005.8
Despite the improvement, the IRS has experienced some problems with certain types of software
distributions. From January through May 2005, software updates for the Common Operating
Environment (COE)9 and Microsoft patch updates, which
were the two most frequent and important types of               Tivoli® distributions for the
distributions made using the Tivoli® software Distribution     COE and Microsoft products
                                                               were the most problematic,
application, were the most problematic. For these 2 types of     having a success rate of
distributions, the success rate was 62 percent, as illustrated    62 percent compared to
in Table 1. Aside from these 2 types of distributions, the        81 percent for all other
remaining 2,912 distributions during that time period had a             distributions.
success rate of 81 percent.




8
  The success rate is a snapshot from the ESM function’s web site, as of May 2005, and represents all software
distributions since the ESM function started tracking this information. The 77 percent was derived by dividing
3,720,342 successful distributions by the 4,808,624 total distribution attempts from July 2003 to May 2005.
9
  The COE is a standardized, configured computer image integrated with a set of standard software packages to
support the needs of all IRS employees.
                                                                                                           Page 3
                   Progress Has Been Made in Using the Tivoli® Software Suite,
                     Although Enhancements Are Needed to Better Distribute
                      Software Updates and Reconcile Computer Inventories



                    Table 1: Software Distributions for the COE and
                   Microsoft Patches From January Through May 2005

                                                                       Number of
                                Number of           Number             Successful       Success
        Distribution Type      Distributions       of Targets         Distributions      Rate
        COE                          533            480,546            259,550           54%
        Microsoft Patches            915            725,303            484,091           67%
                     Totals         1,448          1,205,849           743,641           62%
      Source: Software distribution data from the ESM function.

The COE distributions are important in maintaining current versions of software used by IRS
employees. Microsoft patches are designed to maintain the performance and security of
Windows-based computers and products. Further analysis of the Microsoft patches identified a
wide variance in success. While some Microsoft patch distributions were very successful, such
as one that successfully reached 86 percent of its 70,000 targets, many others reached fewer than
50 percent of their targets, as shown in Table 2.
            Table 2: Microsoft Patch Distributions From January Through
               April 2005 That Were Less Than 50 Percent Successful

              Date of                                                 Number of
          Microsoft Patch         Number of        Number of          Successful      Success
           Distribution          Distributions      Targets          Distributions     Rate
               4/7/2005                27               142               26           18%
              2/10/2005                11               966              285           30%
              4/11/2005                19             18,868            6,057          32%
              4/15/2005                20             37,778            14,853         39%
              4/19/2005                6              13,353            5,995          45%
              2/12/2005                44             39,543            18,700         47%
         Source: Software distribution data from the ESM function.

Oversized update packages can cause software distributions to fail. According to ESM function
personnel, both Microsoft patches and COE packages often include multiple updates, resulting in
packages that may be too large to successfully install. For example, the Microsoft patch
packages listed in Table 2 included multiple updates. The ultimate success of a multiple update
distribution is contingent on success for all updates. If one update within the package fails, the
entire distribution fails.


                                                                                                  Page 4
                     Progress Has Been Made in Using the Tivoli® Software Suite,
                       Although Enhancements Are Needed to Better Distribute
                        Software Updates and Reconcile Computer Inventories



Although the IRS has informal procedures for software distribution, it has not adopted formal
procedures. Without documented guidelines, large packages are developed that may not be
delivered through the IRS’ network, do not install properly, or incapacitate computers used to
distribute the packages.
In addition, documented procedures could identify steps
                                                               One of the reasons for software
to follow in emergency situations. These procedures are        distribution failures is the overly
critical if staff is unavailable to distribute critical      large sizes of the update packages.
software patches when new viruses emerge. For                This condition stems from the lack
example, during the IRS response to the Sasser worm10           of documented procedures to
in May 2004, existence of formal procedures may have          ensure  packages are consistently
                                                                   prepared and developed.
averted an error in the distribution program that resulted
in the spread of this worm. The Sasser worm penetrated
the IRS network and resulted in an estimated $50 million in lost productivity due to the loss of
connectivity caused by the worm.
Software distribution to IRS computers is critical to maintain optimal protection of computers
and taxpayer data and to ensure the continued performance of computer operations.
Unsuccessful distributions can lead to outdated software that affects productivity and to missing
patches on computers, which, in turn, could expose the computer to exploit by hackers,
disgruntled employees, and/or malicious programs.

Recommendation
Recommendation 1: The Chief Information Officer should develop formal procedures that
provide guidance and standardization in the preparation of software distributions, including the
bundling of multiple packages and steps for emergency situations.
         Management’s Response: The Associate Chief Information Officer, End User
         Equipment and Services, will develop formal procedures that provide guidance and
         standardization in the preparation of software distributions. This guidance will include
         the bundling of multiple packages and steps for emergency situations.

Tivoli® Data Are Not Being Used to Manage Computer Inventory and
Software Licenses
According to IRS policy, the Chief Information Officer is responsible for ownership,
management, and control of all computer property in the IRS. The Information Technology


10
  The Sasser worm exploited a flaw in the Local Security Authority Subservice System on Microsoft Windows
computers and transferred additional exploitable code to the computers. It also probed for other computers to infect.
This worm rendered computers inoperable.
                                                                                                             Page 5
                  Progress Has Been Made in Using the Tivoli® Software Suite,
                    Although Enhancements Are Needed to Better Distribute
                     Software Updates and Reconcile Computer Inventories



Asset Management System (ITAMS) is used to record all computer inventories. Tivoli®
provides excellent information to supplement the ITAMS database. However, information from
Tivoli® on computer equipment inventory and software installed on desktops and laptops has not
been used effectively.

Mismatches between Tivoli® computer inventory data and the ITAMS are not
being resolved
The Tivoli® software Inventory application provides current inventory data to the IRS’ official
computer equipment inventory database, the ITAMS. On a weekly basis, the Tivoli® software
Inventory application performs an initial reconciliation between its records and inventory
information from the ITAMS and produces reconciliation reports containing mismatched
computer equipment. From March through May 2005, the number of computers that could not
be reconciled averaged over 8,300 computers.
The End User Equipment and Services division had made               Reconciliation reports
                                                                                    ®
initial attempts to resolve the mismatched computer              between the Tivoli software
equipment. However, these efforts were hampered by the           Inventory application and the
                                                                 ITAMS showed an average of
mislabeling of computer names on the ITAMS. Because of
                                                                    over 8,300 mismatched
these difficulties and because responsibility for reconciling             computers.
the reports had not been formally assigned, the End User
Equipment and Services division abandoned its efforts to
resolve mismatches.
Our assessment of inventory reconciliation reports from March through May 2005 determined
computers that did not comply with the IRS’ naming standards accounted for 36 percent of the
computers identified by Tivoli® that were not listed on the ITAMS. These mislabeled computers
may not contain information necessary to resolve the mismatch, such as location code, machine
type, or computer bar code.
We also found that the remaining mismatched computers were mainly caused by the inability of
the Tivoli® software to successfully connect to computers with and without the Tivoli® software
client installed. This issue is discussed later in this report. When the mismatched computers are
not resolved, the ITAMS does not include accurate hardware information for all IRS computers.
Additionally, incomplete inventory information on IRS computers affects the accuracy of the
IRS’ financial statements by causing them to have an inaccurate accounting of all IRS computer
assets. Without an accurate accounting of computer assets, management does not have
information needed to make purchasing decisions for new computer equipment.




                                                                                           Page 6
                       Progress Has Been Made in Using the Tivoli® Software Suite,
                         Although Enhancements Are Needed to Better Distribute
                          Software Updates and Reconcile Computer Inventories



Tivoli® software inventory data are not used
The Tivoli® software Inventory application has the ability to scan the Tivoli® computers to
identify information on registered software and unknown
                                                                               ®
application files on a frequent, often daily, basis. However,      The Tivoli software Inventory
there is no indication these data are used to manage the IRS’        application has the ability to
software inventory on desktops and laptops. No formal                 identify both registered and
                                                                        unauthorized software.
requests for this information have been received by ESM                  However, there is no
function personnel, other than internal administrative requests.    indication these data are used
In addition, there is no capability to search for specific         to manage software inventory.
software information on the ESM function’s web site.
With over 100,000 IRS computers, the resources needed to manage compliance with software
license agreements and identify unauthorized software are immense. The Government
Accountability Office (GAO) has previously reported on the IRS’ control weaknesses in
managing software licenses and determining compliance with them.11 The Tivoli® software
Inventory application can aid in this effort since it can inventory the software on every desktop
and laptop, a process that, if done manually, would require an enormous effort.
However, we found the IRS has not provided specific procedures for using the Tivoli® software
Inventory application to monitor compliance with existing software licenses. While the IRS’
asset management procedures include a title on software management, the section is blank and
reserved for later use.
By not managing software installations and licenses, the IRS may install more copies of the
software than were purchased. As a result, the IRS could be violating software license
agreements, which could result in embarrassment and unnecessary legal fees. As an example,
the IRS analyzed the use of the Monarch software products12 using data from Tivoli®, the
ITAMS, and other sources. In the analysis, the IRS provided documentation for 142 Monarch
software licenses. The IRS had also purchased an indeterminate number of licenses for a
Monarch software product for which documentation did not exist. The Tivoli® data showed that
494 unique computers had a Monarch product installed. When this information was compared
against the software license data for the Monarch products, the IRS determined the number of
software installations far exceeded the number of licenses purchased.




11
     Financial Audit: IRS’s Fiscal Year 2001 and 2000 Financial Statements (GAO-02-414, dated February 2002).
12
     Monarch is proprietary software used to create, analyze, and read Collection Activity Reports.
                                                                                                        Page 7
                    Progress Has Been Made in Using the Tivoli® Software Suite,
                      Although Enhancements Are Needed to Better Distribute
                       Software Updates and Reconcile Computer Inventories



Recommendations
The Chief Information Officer should:
Recommendation 2: Require the Associate Chief Information Officer, End User Equipment
and Services, to resolve mismatches between Tivoli® data and the ITAMS and to ensure all
desktops, laptops, and servers comply with the IRS’ computer naming standards.
        Management’s Response: The Associate Chief Information Officer, End User
        Equipment and Services, will develop appropriate procedures to resolve mismatches
        between Tivoli® data and the ITAMS, ensuring all desktops, laptops, and servers comply
        with the IRS’ computer naming standards.
Recommendation 3: Ensure software management policies and procedures are provided and
responsibility for software management is specified. The policies and procedures should require
the use of Tivoli® software Inventory application data to monitor compliance with software
licenses.
        Management’s Response: The Associate Chief Information Officer, End User
        Equipment and Services, will develop software management policies and procedures.
        The policies and procedures will identify responsibility for software management and
        will require the use of Tivoli® software Inventory application data to monitor compliance
        with software licenses.

Tivoli® Could Improve Software Distribution and Inventory
Management by Connecting to More Computers
The effectiveness of all Tivoli® applications, including those for software distribution and
inventory management, is dependent on the system’s ability to successfully communicate with
computers on the IRS network. Before the Tivoli® system can connect to an IRS computer, the
Tivoli® client software must be properly installed.13
The IRS has significantly improved Tivoli’s® ability to connect to computers since our July 2003
report. In that report, we found the IRS had a computer connectivity rate of 60 percent
(78,925 of 131,488 computers) in April 2003. The IRS estimates it reached an average of
95 percent (98,545 of 104,147 computers) from January through April 2005. These
improvements were largely due to the use of comprehensive Tivoli® procedures established since
our last review.



13
  Tivoli® terminology refers to computer connectivity as “endpoint health.” A computer that can communicate with
the Tivoli® servers is considered a “healthy endpoint,” whereas a computer that had once communicated with the
Tivoli® server but is no longer able to is called an “unhealthy endpoint.”
                                                                                                        Page 8
                     Progress Has Been Made in Using the Tivoli® Software Suite,
                       Although Enhancements Are Needed to Better Distribute
                        Software Updates and Reconcile Computer Inventories



While this improvement is commendable, we are concerned with the IRS’ ability to quickly
reach its computers when the need arises. The IRS determines its computer connectivity
percentage on whether Tivoli® has connected to a
                                                               We estimate the IRS cannot reach
computer within the last 30 days. However, as recent             18 percent of its computers, or
events such as the Sasser worm and other fast-moving            approximately 18,750 computers,
computer security outbreaks have shown, the IRS must                   in any given week.
install critical security patches as soon as possible. As
such, we believe the 30-day criterion is not realistic and
using a 1-week connectivity criterion is more appropriate in today’s environment. Factoring in
computers without the Tivoli® client software and our 1-week criterion, we estimate the IRS
cannot reach 18 percent of its computers, or approximately 18,750 computers, in any given
week.
Aside from the change in connection criterion, there are several reasons why some computers
cannot successfully connect to the Tivoli® system or did not have the Tivoli® client software
installed. The following areas of concern are based on either our analyses of Tivoli® data or
interviews with ESM function team members responsible for the Tivoli® applications:
     •   The installation and maintenance of the Tivoli® client software were inconsistently
         performed, mainly due to undocumented procedures. For example, the Tivoli® client
         software should be installed through a script14 after the COE has been installed.
         However, different versions of the script are used, or, in some cases, no script is used at
         all.
     •   ESM function employees were not always given adequate access, through the Windows
         Administration group, to desktop and laptop computers to restore their connectivity. This
         group was not added as part of the script used to install Tivoli® client software after the
         COE has been installed. In addition, they did not have access to restricted networks used
         by several IRS functions, including those used by the Offices of Appeals, Chief Counsel,
         and Criminal Investigation. Without access to these networks, the team is dependent on
         these other functions to maintain computer connectivity, which may not be their highest
         priority.
     •   The IRS has computers that were once on the network but have since been taken out of
         service for long periods of time. These computers include those that are inadvertently
         turned off and those taken out of service for future backup or emergency use. When
         ESM function employees are not notified of these computers, the Tivoli® system will
         continue to show these computers as being in service but will be unable to connect with
         them.


14
  A script is a short program written in general-purpose programming language to perform certain tasks, including
those that are repetitive in nature.
                                                                                                           Page 9
                    Progress Has Been Made in Using the Tivoli® Software Suite,
                      Although Enhancements Are Needed to Better Distribute
                       Software Updates and Reconcile Computer Inventories



     •   Neither the ESM function nor the End User Equipment and Services division has been
         formally assigned the responsibility for ensuring all computers are brought into the
         Tivoli® system, which includes installing the Tivoli® client software on users’ computers.
         Complicating this effort is the large number of computers that are no longer active on the
         IRS network. The ESM function program15 used to identify computers without the
         Tivoli® client software does so by scanning the IRS’ Windows Domain servers but does
         not distinguish between active and inactive accounts.
By being unable to connect to thousands of computers through the Tivoli® system, the IRS will
continue to rely on limited staffing to manually administer these computers, particularly for
installing the latest security patches and inventorying hardware and software. Consequently, the
risk of one or more of these computers being vulnerable to viruses, worms, and other attacks
remains high. Also, the IRS could understate its financial statements by being unable to verify
its inventory of computer systems through Tivoli® software Inventory application scans.

Recommendations
The Chief Information Officer should:
Recommendation 4: Ensure appropriate ESM function employees have adequate access to
computers and networks to resolve computer connectivity problems. First, the script used for
installing the Tivoli® software client on users’ computers should be modified to allow access by
ESM function employees via the Windows Administration group to manage Tivoli® computers.
Second, access to restricted networks, such as those in the Offices of Appeals, Chief Counsel,
and Criminal Investigation, should be granted to personnel responsible for managing Tivoli®
computer connections.
         Management’s Response: The Associate Chief Information Officer, End User
         Equipment and Services, will develop a plan and procedures to ensure appropriate ESM
         function employees have adequate access to computers and networks to resolve computer
         connectivity issues. The plan and procedures will also account for modifying the script
         used for installing the Tivoli® software client on users’ workstations via the Windows
         Administration group for the purpose of managing Tivoli® computers. Second, the plan
         and/or procedures will also grant access to appropriate personnel in the Offices of
         Appeals, Chief Counsel, and Criminal Investigation for managing Tivoli® computer
         connections.
Recommendation 5: Notify all IRS employees of the need for computers to remain online
and connected to the IRS network whenever possible so Tivoli® can communicate with them and
perform management functions.

15
  ESM function personnel developed the E-Touch program to supplement data from Tivoli® and assist in
identifying computers without the Tivoli® client software.
                                                                                                       Page 10
                 Progress Has Been Made in Using the Tivoli® Software Suite,
                   Although Enhancements Are Needed to Better Distribute
                    Software Updates and Reconcile Computer Inventories



       Management’s Response: The Associate Chief Information Officer, End User
       Equipment and Services, will continue to notify all IRS employees via Employee
       Advisories of the need for computers to remain online and connected to the IRS network
       whenever possible.
Recommendation 6: Separately account for Tivoli® computers that are taken out of service
for backup or emergency purposes. When these computers are brought back online, Tivoli®
should recognize them as active.
       Management’s Response: The Associate Chief Information Officer, End User
       Equipment and Services, will develop appropriate processes and procedures to provide
       exception reporting when computers are taken offline and brought back online to ensure
       Tivoli® recognizes them.
Recommendation 7: Assign formal responsibility for using data available from the ITAMS
or other sources to identify active computers on the IRS network that do not have the Tivoli®
client software installed and for ensuring those computers have the Tivoli® software and can
successfully connect with the Tivoli® system.
       Management’s Response: The Associate Chief Information Officer, End User
       Equipment and Services, will develop a process/procedure to identify systems that are not
       being managed by Tivoli® software so they can either receive the Tivoli® software,
       become part of the Tivoli® managed group, or be removed from the network.




                                                                                        Page 11
                      Progress Has Been Made in Using the Tivoli® Software Suite,
                        Although Enhancements Are Needed to Better Distribute
                         Software Updates and Reconcile Computer Inventories



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the effectiveness of the Internal Revenue
Service’s (IRS) Tivoli®1 Enterprise Systems Management (ESM) function applications. While
the IRS has several Tivoli® applications, this review focused on the Tivoli® software Distribution
and software Inventory applications. In addition, we reviewed the effectiveness of the IRS’
efforts to improve Tivoli® computer connectivity, which is critical to the effectiveness of all
Tivoli® applications. To accomplish this objective, we:
I.       Determined whether computer connectivity was adequately managed.
         A. Identified policies, procedures, and standards for managing Tivoli® computer
            connections.
         B. Assessed the process for managing computer connectivity. We extracted computer
            connection data from the ESM function’s web site for each week from January 19 to
            April 28, 2005. These data included information on all IRS Tivoli®-enabled
            computers (the highest total being 105,424 during the time period) and E-touch
            systems2 (the highest total being 10,845 during the time period).
         C. Identified factors limiting the success of Tivoli® computer connectivity, including
            interviewing all seven Tivoli® team members and identifying trends from Tivoli® data
            obtained.
II.      Assessed the effectiveness of patch3 management and software updates using the Tivoli®
         software Distribution application.
         A. Identified policies, procedures, and standards for patch management and software
            updates.
         B. Assessed the process for patch management and software update using Tivoli®.
         C. Assessed the impact of incomplete patching and incomplete software updates of IRS
            computers. We obtained a detailed summary of all IRS enterprise-wide software
            distributions for Calendar Year 2005. This included data for all 4,360 distributions


1
  Tivoli® is a registered trademark owned by IBM.
2
  The E-Touch program is a supplemental program developed by ESM function personnel to assist in identifying
computers in the IRS’ architecture, particularly those outside of the Tivoli® environment.
3
  A patch is a fix to a program as a result of a design flaw in the program. Patches must be installed or applied to the
applicable computer to correct the flaw.
                                                                                                              Page 12
                 Progress Has Been Made in Using the Tivoli® Software Suite,
                   Although Enhancements Are Needed to Better Distribute
                    Software Updates and Reconcile Computer Inventories



          made through May 6, 2005. These data included the package type, size, and date of
          distribution.
       D. Identified factors limiting the success of patch management and software updates
          using Tivoli®.
III.   Assessed the effectiveness of inventorying software and hardware using the Tivoli®
       software Inventory application.
       A. Identified policies, procedures, and standards for inventorying hardware and software.
       B. Assessed the process for inventorying software and hardware.
       C. Assessed the impact of inadequate management of hardware and software inventory.
          We reviewed all nine available weekly Tivoli®/Information Technology Asset
          Management System (ITAMS) reconciliation reports available on the ESM function’s
          web site from March through May 2005. These reports provide details on computers
          managed by Tivoli® but not found on the ITAMS and vice versa.
       D. Identified factors limiting the success of software and hardware inventory.
IV.    Assessed the effectiveness of managing software licenses using the Tivoli® software
       Inventory application.
       A. Identified policies, procedures, and standards for managing software licenses.
       B. Assessed the process for managing software licenses.
       C. Assessed the impact of inadequate management of software licenses.
       D. Identified factors limiting the success of software license management.




                                                                                           Page 13
                 Progress Has Been Made in Using the Tivoli® Software Suite,
                   Although Enhancements Are Needed to Better Distribute
                    Software Updates and Reconcile Computer Inventories



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Kent Sagara, Audit Manager
Myron L. Gulley, Senior Auditor
Michael A. Howard, Senior Auditor
Jimmie Johnson, Senior Auditor
Anthony D. Knox, Senior Auditor




                                                                                     Page 14
                Progress Has Been Made in Using the Tivoli® Software Suite,
                  Although Enhancements Are Needed to Better Distribute
                   Software Updates and Reconcile Computer Inventories



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, End User Equipment and Services OS:CIO:I:EU
Associate Chief Information Officer, Enterprise Networks OS:CIO:I:EN
Associate Chief Information Officer, Enterprise Operations Services OS:CIO:I:EO
Director, Enterprise Systems Management OS:CIO:I:EU:ESM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief Information Officer OS:CIO




                                                                                   Page 15
    Progress Has Been Made in Using the Tivoli® Software Suite,
      Although Enhancements Are Needed to Better Distribute
       Software Updates and Reconcile Computer Inventories



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 16
Progress Has Been Made in Using the Tivoli® Software Suite,
  Although Enhancements Are Needed to Better Distribute
   Software Updates and Reconcile Computer Inventories




                                                       Page 17
Progress Has Been Made in Using the Tivoli® Software Suite,
  Although Enhancements Are Needed to Better Distribute
   Software Updates and Reconcile Computer Inventories




                                                       Page 18
Progress Has Been Made in Using the Tivoli® Software Suite,
  Although Enhancements Are Needed to Better Distribute
   Software Updates and Reconcile Computer Inventories




                                                       Page 19
Progress Has Been Made in Using the Tivoli® Software Suite,
  Although Enhancements Are Needed to Better Distribute
   Software Updates and Reconcile Computer Inventories




                                                       Page 20
Progress Has Been Made in Using the Tivoli® Software Suite,
  Although Enhancements Are Needed to Better Distribute
   Software Updates and Reconcile Computer Inventories




                                                       Page 21
